 Deparment of Health and Human Services

                         OFFCE OF

     INSPECTOR GENERAL





INFLUENCES ON MEDICARE' S SKILLED

    NURSING FACILITY BENEFIT





                t.IlVJCES'



                             Richard P. Kusserow
                             INSPECTOR GERNERAL

        1-                     JUNE 1991
             ollt"..JO
                         OFFICE OF INSPECTOR GENERAL

The mission of the Ofce of Insptor Genera (OIG), as madate by Public Law 95-452, as
amended, is to protect the integrty of the Deparent of Heath and Huma Serces ' (HS)
progrs as well as the health and welfar of beneficiares seed by those            prgn.
                                                                                   Ths
statutory mission is cared out thugh a nationwide networ of audits, investigations, and
insptions conducte by     th  OIG operatig components: the Ofce of Audit Serces, the
Ofce of Investigations, and the Offce of Evaluation and Insptions. The OIG also inors the
Secta of IfS of progr and maagement prblems and remmends coures to                        cmt
them.

                             OFFICE OF AUDIT SERVICES
The OIG' s Ofce of Audit Servces (OAS) provides all auditig servces for IfS, either by
conducting audits with its own audit resours or by oversing audit wor done by others.
Audits exame the performance of IfS progr and/or its               and contrto
                                                                     grtes
carg    out their resptive responsibilties and ar intende to provide independent
assessments of IfS progr and operations in        orrto reuce waste, abuse, and
mismanagement and to promote economy and effciency thughout the Deparnt

                             OFFICE OF INVESTIGATIONS
The OIG' s Office of Investigations (OJ) conducts  cral,  civil, and        adstrtive
investigations of allegations of wrngdoing in IfS programs or to IfS beneficiares and of
unjust enrchment by providers. The investigative effons of 01 lead to crminal convictions,
admnistrative sanctions, or civil money penalties. The 01 also oversees State Medcaid frud
contrl units which investigate and proseute frud and patient abuse in the Medcaid         progr
                   OFFICE OF EVALUATION AND INSPECTIONS
The OIG' s Ofce of Evaluation   and Inspetions (OEI) conducts          shor-tenn management and
progr evaluations (called inspetions) that focus on issues of concern to the Deparent, the
Congress, and the public. The fmdings and reommndations contaned in these inspection
repons generate rapid, accurte, and up-to-te information on the effciency, vulerabilty, and
effectiveness of deparenta progrs.

This repon was prepar in Chicago under the dition               of Willam C. Moran, Regional
Inspector Genera, Ofce of    Evaluation and Inspctions and Nataie Coen, Deputy Regional
Inspector Genera, Ofce of    Evaluation and Insptions, Region V.          Parcipatig in ths    project
were the following people:

John M. Traczyk,   Project Leader           Thomas Noplock, 
         Headuarters
Margaret Shell
Thoma F. Komaniecki Lead Analyst
 Deparment of Health and Human Services
                         OFFICE
     INSPECTOR GENERAL





INFLUENCES ON MEDICARE' S SKILLED

    NURSING FACILITY BENEFIT





             ~ o;f.RVJCE$'




                             Richard P. Kusserow
                             INSPECTOR GERNERAL
        '0
                               OEI- 05- 89- 01590
                ".1: a
                   EXECUTIVE SUMMARY

PURPOSE

To detenne whether recent changes to the Medicar skilled nuring facilty (SNF) benefit have
left the program vulnerable to unpredictable growth in expenditurs.

BACKGROUND

Medicare policies and procedures used to determne SNF eligibility and program payments have
undergone few changes since the early seventies. However, as the eighties drw to a close
several changes occuned in rapid succession. In April 1988, the Health Car Financing
Admnistration (HCFA) changed the SNF coverage guidelines used by SNFs and fiscal
intermediares (FIs) to decide which patients qualifed for benefits. Less than 9 months later, in
Januar 1989, implementation of the Medicare Catastrophic Coverage Act of 1988 (MCCA)
changed SNF eligibility requirments and reduced out-of-pocket expenses for SNF patients.
One year later, MCCA was repealed and previous SNF eligibility reuirements reinstated.

METHODOLOGY

Durg the course of this inspection , we surveyed 60 SNFs, 10 FIs and 10 Medicaid State
agencies in 10 States. We also analyzed a 1 percent sample of Medicare patients who received
SNF benefits between October 1, 1987 and June 30, 1990. The sample was analyzed to
determne whether the guideline changes and MCCA had an effect on SNF admssions, average
length of stay and Medicar payments. Additional data was obtained from the Monthly National
Intermediar Benefit Payment Repon for the period Januar 1988 through December 1990.


FINDINGS

     Medicare payments to SNFs more than trpled between 1988       and 1989.


     The 1988 SNF coverage guideline changes accounted for 27 percent of the increase in
     SNF payments. Smal increases in number of SNF admssions and slightly longer length
     of stays accounted for most of the increase.

     The MCCA had a significant impact on beneficiares, providers and Medicare program
     expenditures and resulted in an increase in Medicare expenditures which exceeded 300
     percent.

     Barng any unforseen changes, it appears unlikely that admissions and payments wil
     return to anywhere near the levels the Medicar   program   experienced before MCCA.
                                                          ..........................................................
                                                                         ..........
                                                                   ........ ...,.... ..............
                                                                                     
                ........ .... .........""." .
                                                                                             ............................................




                         TABLE OF CONTENTS


EXECUTIVE SUMMARY

INTRODUCTION.................................................. .......... 
                                               ............. 1





       Purose...... ...........................................................................................................


       Background.......................................................................................................... 1





       Methodology.. ................ ............ .............. 


FIND IN GS ......, ....................................................................................................... .... 


       Medicare payments to SNFs more than trpled between 1988 and 1989. ...........


       The 1988 SNF coverage guideline changes accounted for 27 percent of
       the increase in SNF payments. Small increases in the number of SNF
       admssions and slightly longer length of stays accounted for most of
       the increase......... ............ ...... ......                                                                          ....... 3

       The MCCA had a signifcant impact on beneficiares,providers and
       Medicare progr expenditurs and resulted in an increase in Medicare
       expenditues which exceeded 300 percent ..........................................................

       Barng any unforseen changes, it appears unlikely that adssions
       and payments will retur to anywhere near the levels the Medicar
       progr experienced before MCCA. ...................................................................
APPENDIX ........................................ ........                          ............................................ A­

                            INTRODUCTION

PURPOSE

To determe whether recent changes to the Medicar skilled nuring facilty (SNF) benefit have
left the program vulnerable to unpredictable growth in expenditues.


BACKGROUND

The Medicare   progr assists patients in paying for extended care services provided by SNFs
parcipatig in Medicare.     These extended car services, commonly called SNF benefits, are
covered under Par A of the Medicar progr and include varous skilled nuring and
rehabiltative services. The covered services provided by SNFs ar similar to the services
received by hospital inpatients, but at a lower intensity of care.

Medicare assists patients in paying for their SNF car if the beneficiar meets several eligibility
crteria. The  criteria requi a beneficiar to have been hospitazed for at least 3 days before
admssion to a SNF. The beneficiar must be adtted to a SNF within 60 days of their hospital
discharge. The admssion must be medically necessar and a SNF would be the best source to
provide the medical car needed by the patient In addtion to these crteria, the beneficiar must
be admtted to a certfied SNF which meets Medicare s defmition of skilled. The services a
patient receives while in a SNF must be provided daly following a physician s order.

Medicare allows up to 100 covered days of SNF car per beneficiar spell of ilness. A spell of
illness would begi on the fist day the beneficiar received hospital or SNF services and would
end when the patient has not been a hospital or SNF patient for 60 consecutive days.

If a beneficiar is eligible for SNF car, Medicare pays for all covered SNF expenses for the first
20 days. After the 20th day, patients ar required to pay for par of their SNF care. In 1991
Medicare beneficiares ' copayments for days 21- 100 wil be $78. 50. After 100 days
beneficiares are financially responsible for al of the expenses they incur for SNF care.
Beneficiares whose personal resources do not allow them to pay for all of the care they need
often tur to the Medicaid progrm for financial assistance. Total Medicare payments for SNF
care are minor when compard to total Medicaid and out-of- pocket payments for SNF care.

Many beneficiares entering SNFs are unable to meet all of Medicare s eligibility requirements
for SNF coverage. The primar responsibilty for detennning whether a patient might be
eligible for Medicare SNF benefits falls on SNF personnel. If a SNF believes a patient would
qualify for Medicare benefits, it submits a claim for payment.

Most of the decisions made by SNFs concerning SNF eligibility are not questioned by the fiscal
intermediares (PIs) that adjudicate the claims for the government. About 20 percent of the
coverage decisions made by SNFs are reviewed for accuracy. The FI reviews are intended to
ensure that SNFs make sound medical necessity decisions concerning whether or not an
individual patient qualifies for Medicare coverage. The reviews also serve as a deterrent to
discrinatory submission of claims.


The Fls monitor the error rate of each SNF' s clais. If a SNF' s error rate remains within
acceptable toleraces, the SNF is granted what is caled a waiver. If a SNF exceeds the
tolerances, it will lose its waiver and all of its claims could be subject to PI review. This
intensified PI review could delay futur payments and might result in the SNF having to return
money to the program.

The policies and procedures used to determne Medicar SNF eligibility and program payments
have undergone few changes since the early seventies. However, as the eighties drew to a close,
several changes occured in rapid succession. In April 1988, the Health Car Financing
Admnistration (HCFA) changed the SNF coverage guidelines used by SNFs and PIs to decide
which patients qualified for benefits. Less than 9 months later, in Januar 1989, implementation
of the Medicar Catastrophic Coverage Act of 1988 (MCCA) changed SNF eligibility
requirements and reduced out-of- pocket expenses for SNF patients. One year later, MCCA was
repealed and previous SNF eligibility requirements reinstated.


METHODOLOGY

Durg the course of this inspection , we sureyed 60 SNFs, 10 PIs and 10 Medicaid State
agencies in 10 States. We selected the States at radom, based on a weighted sample of
Medicare SNF beds in each State. Individual SNFs were selected based on bed size, type of
ownership and other factors. Strctud discussion guides were used to gather qualitative data
on respondents ' recollections regarding SNF actions following HCFA' s coverage guideline
clarfication, and following enactment and repeal of MCCA.

We also analyzed a 1 percent sample of Medicare patients who received SNF benefits between
October 1 , 1987 and June 30, 1990. The records came from the Medicare Automated Data
Retreval System which contains a complete Par A and Par B claims history for a patient. The
sample was analyzed to determine whether the guideline changes and MCCA had an effect on
SNF admssions, average length of stay (LOS) and Medicare payments. Additional data was
obtained from the Monthly National Intermediar Benefit Payment Repons for the period
Januar 1988 through December 1990.
                        ...................................................................
                            .... ..................
              "'.'."'."".'.'.'.'.
                   ... ....                         .... .........
                                    .............. ...... "        ......... .....
             ...................................... .................. .....
                                                                       ...                                   ..- ..........
                                                                                            ..................................-....




                                                  FINDINGS

Finding 1.    Medicare payments to SNFs more than trpled between                                          1988     and 1989.


Medicare payments to SNFs more than trpled between 1988 and 1989. In April 1988, HCFA
revised the guidelines used by SNFs and FIs to determe whether or not a person would be
eligible for Medicare SNF coverage. The revised gudelines provided a clearr                                              understanding of
the tyes of conditions the Medicar progr would cover under its SNF benefit and added
nearly $20 millon to Medcar s average monthly outlay for skilled care.


                                              Monthly SNF Payments

                                          January 1987 - December 1990


             Millons
     $350

     $300 ..........


     $250 .
                                                           tiCCA'" ......... . 

     $200 ....
                 Guideline Change

     $150 


     $100

       $50


                         87                            88
             JFMAMJ JASONDJFMAMJ JASONDJFMAMJ JASONDJFMAMJ JASOND
                                                                                     89                            90
  HCFA 456


Enactment of MCCA, less than a year later, had an even grater impact on Medicar
expenditurs for skiled care. The unprecedented $2 bilion expansion in Medicare SNF
payments under MCCA was due to an incrase in the number of certfied beds, increased
admssions, changes in coinsurance, increased covered days and longer lengths of stay (LOS).

Repeal of MCCA, less than a year after its enactment, failed to significantly reduce the amount
of money the Medicar program spent on skilled car. The changes in the coverage guidelines in
1988, coupled with more skilled beds brought to the Medicare progr by MCCA , have kept
Medicare payments for SNF car high.
Finding 2.	   The   1988 SNF coverage  guidline changes accounted for    27  percent of the in
              crease in SNF payments. Small increases in the number of SNF admissions and
              slightly longer length of stays account for most of the increase.

In Apri 1988, HCFA revised the guidelines used by SNFs and FIs to determe whether or not a
person would be eligible for Medicare SNF coverage. The revised guidelines provided a clearer
understandig of the types of conditions the Medicar program would cover under it' s SNF
benefit.

The HCFA revised SNF coverage guidelines for many reasons. By 1988, HCFA was faced with
ever increasing numbers of coun cases chalenging Medicare SNF coverage decisions. There
was also growing concern within HCFA over inappropriate coverage decisions made by FIs and
varation among PI reviewers. These concerns, along with a theatened petition for rulemakng
that would have left changes in SNF coverage in the hands of the couns, prompted HCFA to take
action to change coverage guidelines.

      Revised guidelines made it eaier for SNFs to obtain Medicare coverage for some
      beneficiaries.

Revised guidelines brought the Medicar program some patients whose clinical or functional
needs were previously addrssed in a different setting or not at all. Diagnosis or prognosis were
no longer the sole factors in decidig whether or not a patient required skilled care. Even in
cases where full or panal recovery is not possible, the revised guidelines instrcted FIs to
consider coverage of skilled services that prevent patient deterioration or maintai a patient
curnt capabilties. By providing SNFs and PIs with specific examples of the types of
conditions the Medicare progr would cover under the SNF benefit, SNF and PI coverage
decisions became less subjective.

For many patients, the SNF guideline revision did not make pursuing Medicare SNF benefits
any more am'active than they had been previously. According to some SNFs, some patients
chose to forego Medicar SNF benefits to avoid extr paperwork or to get other services not
covered by Medicar, such as in- house laundr services. Other SNFs indicated that many of the
patients they admtted were not interested in pursuing Medicar benefits when biling and
reimbursement from Medicaid was much more predictable than under Medicare.

Other forces also appear to have limted the number of patients who might have benefited from
Medicare s more permssive coverage guidelines. Many SNFs operate at greater than 90 percent
capacity and in some areas of the United States, the number of beds available for skiled care
fals shon of demand. The types of patients likely to benefit from the revised guidelines were
those who would probably require SNF services for a longer period of time. These long-term
service- intensive and high-overhead patients may not have been attractive to some nursing
homes. When Medicare ceased to pay for the entire cost of skilled care for these patients after
20 days , SNFs would have to collect the cost of care from individual patients or settle for
Medicaid payments which might not cover costs.
      The SNFs and FIs varied in their acceptance of the revised coverage guidelines.

Medicare encouraged SNFs to bil    the  program for patients whose coverage might have been
uncenan in the past. Following the changes to the coverage guidelines, 20 out of 60 SNFs
interviewed stated that their admssions policies changed and that they actively pursued coverage
for: (1) nasogastrc, jejunostomy and. gastrostomy patients, (2) insulin dependent diabetics who
could not self admnister the injection, and (3) patients with multiple medical conditions which
in the aggrgate, required a skilled level of car. These SNFs, and al of the FIs with whom
spoke, attbuted the increases they saw in Medicare covered days dictly to the changes HCFA
made in the SNF coverage guidelines.

The changes in coverage guidelines did not effect all SNFs. Seven SNFs stated that they
experienced little or no increases in their payments or admssions after HCFA moded SNF
coverage guidelines. Severa more reponed that they were not able to meet the medical and
social needs of patients found in the expanded pool. They felt that they did not have the staf nor
the equipment to adequately care for the patients, especialy patients fed by tubes. The revisions
to the SNF coverage guidelines did not provide suffcient financial incentive for SNFs to take on
additional staf and other operating overhead to expand their existing capacities for skilled care.
Other reasons also provide insight as to why some SNFs did not readily respond to the revised
guidelines for SNF coverage. Several of the SNFs reportd that FIs were slow to infonn them of
the guideline revisions. Analysis of data and SNF responses seems to show that the more readily
an PI adopted the guideline changes and educated providers, the greater the increase in SNF
admssions and payments. Those PIs that saw the change in guidelines as. not being a
fundaental change, and made litte attempt to educate providers, saw little or no change in
admssions or payments for SNF care.

Some SNFs reponed a cenan amount of distrst of FI information regarding the guideline
changes. This skepticism on the pan of some SNFs was also observed by some FIs, who
reponed that they saw a reluctace by providers to bil for services covered under the revised
guidelines. A few SNFs admtted that they proceeded slowly and cautiously in adopting the
revised coverage guidelines. They feared loss of their waiver status. And, they did not wish to
expand their overhead to accommodte the patients found in the expanded pool if the Medicare
progr s commtment to revised guidelines would be shon lived.
      The small increase in SNF admissions, coupled with more covered days of care,
      added $20 millon to Medicare s average monthly outlay for SNF benefits.

After the April 1988 guidelines revisions, Medicare s average monthly payment for SNF care
rose 27 percent to $90 milion. Medicar s average monthly payment for SNF care was $71
milion before the guideline changes. After the guideline changes went into effect Medicare saw
a 16 percent increase in the number of SNF admissions and a 13 percent increase in the average
length of a patient s stay. On average, more than 31 00 patients were admitted to SNFs each
month after the guideline revision compard to 27, 00 admissions per month before the change.
The average LOS for the last 6 months of 1988 was 26 days, up 13 percent from the average
LOS of 23 days before the guideline changes.
The natur of the medical conditions covered by Medicar after April 1988 probably accounts
for the increase in average LOS. One out of thee SNFs attbuted increases in their Medicare
covered days to patients fed by tubes, insulin dependent diabetics and patients with multiple
debilitating medical conditions who often require SNF services for longer periods of time.

The revised coverage guidelines did not have a uniform impact on all PIs. The average monthly
SNF expenditur was not the same for all FIs indicating that the revised guidelines had different
effects in different aras of the countr. Most of the FIs had increases in their SNF expenditures
rangig from less than 1 percent to over 120 percent. A number of PIs had decreases in their
SNF expenditues ranging from 3 percent to over 35 percent (See Appendix A).

Finding 3.    The MCCA ha       a signifcant   impact on   beneficiaries, providers and Medicare
             program expendires and    resulted in an increase in Medicare expenditures
              which exceeded 300 percent.

Less than a year after HCFA revised the SNF coverage guidelines, MCCA was implemented.
Unlike the coverage guideline changes, MCCA had no impact on the medical conditions needed
to qualify for SNF care. The MCCA liberalized earlier eligibilty requirments and reduced
patient out-of-pocket expenses for SNF car. The MCCA:

                Removed the 
    day prior hospital stay required before a SNF admission;

                Increased the numer ofSNF das covered by Medicarefrom 100 to 150;

                Eliminated spell of ilness providing a renewed benefit period of 150 days each
                year for any qualifing medical condition; and

                Changed patient coinsurance, reducing patient financial liabilty and shifing
                most of the cost to the Medicare program.

The cumulative effect of these changes increased Medicare payments for SNF care dramatically.

      The significant reduction in coinsurance during MCCA provided an incentive for
      patients to pursue Medicare SNF coverage.

The significant reduction in coinsurance during MCCA provided an incentive for patients to
pursue Medicare SNF coverage. Before MCCA , Medicar paid the entire cost of patient SNF
care for the first 20 days. After the 20th day, patients paid approximately $67. 50 per day in
coinsurance. A patient receiving SNF benefits for 100 days in 1988 would have paid $5400 in
coinsurance. Under MCCA , patient out-of- pocket expenses were reduced to $25. 50 per day for
the first 8 days of coverage. The reduced coinsurace for SNF benefits in 1989 lowered a
beneficiar s total financial liability to a maximum of $204.
                                       ~~~
                                   Out of Pocket Costs
                                 for a 1   00 day SN F stay




                 $ 540                      $ 20                  $ 5920




               Before MCCA              During MCCA              After MCCA




The MCCA not only reduced patient financial liabilty but also incrased the number of days
Medicare would pay for SNF care. Before MCCA , Medicar covered up to 100 days per spell of
illness. For most patients, permanently confmed to SNFs because of illness, the spell of ilness
eligibilty requirement meant that in their lifetie, they would probably never receive more than
100 Medicar covered SNF days. Durng MCCA, patients who qualfied for SNF benefits could
expect Medicare to pay for up to 150 days of SNF benefits each year.

Before MCCA, approximately 5 percent of Medicar beneficiares admtted to SNFs had stays of
100 covered days. Under MCCA, 12 percent of the beneficiares adtted to SNFs had covered
stays equal to or greater than 100 days.

     The MCCA provided a financial incentive for SNFs to expand.

Unlike the guideline revision 8 months earlier, MCCA provided a clear financial incentive for
SNFs to bil Medicare. The financial incentives of MCCA were so strong that some nursing
facilities which did not pancipate in the Medicare progr reponed having had some of their
beds certfied for parcipation in the Medicare progr. Other facilities, alady pancipating in
the Medicare progr, reponed that they increased their skilled care beds. More than 1300 new
SNFs opened their doors to Medicar beneficiares between June 1988 and Januar 1990. Over
57, 000 additional skilled care beds were certed durg the same period.
                                    New Medicare SNF Beds
                                        June 1987 - January 1990


                                                   rea8e in SNF ; Beds'
          6/87 - 6/88

                                                                                   +1.2%



          6/88 - 6/89





          6/89 - 1/90                                                              +2.




   HCFA,
                                                  20
                                                   Thousands
   Bureau of Data Management and Strategy


Many of the patients admtted to SNFs durg MCCA may have been receiving care in the
facility before MCCA was enacted. Nearly 75 percent of the SNFs we interviewed reponed that
they looked at their in- house patient population to see if any patients would qualify under
MCCA and that most of their incrase in Medcar adssions durng MCCA came from their
in- house patient population. Admssions from home, doctor s offces and emergency rooms
were also reponed, but the incidence of such SNF adssions was not significant.

Repeal of the 3 day hospitalzation requirment made obtaing addtional Medicare SNF
benefits for qualfied patients aleady residing in nuring homes as easy as moving them from
noncertfied beds to Medicar certfied beds. Nearly a third of all the patients who received SNF
benefits in the first quarer of 1989 did not have a prior 3 day hospitalization , indicating that they
probably were moved from noncenied to cenied beds within a SNF.

Some SNFs felt they had a legal obligation to purue Medicare SNF benefits for any potentially
                                 Other SNFs saw it as a financially practical matter when
eligible patients in their facilties.
Medicare paid more than other sources. A few reponed that their Medicaid State agency advised
them to bil Medicare for Medicaid recipients that might qualify under the MCCA.

Some SNFs saw litte     no change under MCCA. Most of the SNFs that reported litte or no
                         ot

change were either hospital based or specialized in rehabiltation. Hospita based SNFs saw
almost all their SNF admssions continue to come from the hospital. Other SNFs, especially
those specialzing in rehabiltation , continued to trat the same type of patient they had before.
The increased pool of patients and additional covered days allowed by the MCCA had minimal
effect on these facilities.

Before enactment of MCCA, the pool of Medicar beneficiares potentially eligible for SNF
benefits was limited. Repeal of the 3 day hospitaization requirement increased the size of the
pool from which SNFs could select potential admssions. Instead of limiting the pool to the 7.
millon beneficiares discharged from hospitas MCCA expanded the pool to include the entire
Medicare Par A population which in 1989 exceeed 30 millon individuals. Under MCCA
every beneficiar in the Medicar program became potentially eligible for 150 days of SNF
benefits each year, provided they had a qualifying medical condition.

After MCCA' s implementation , Medicare saw an imediate incrase in SNF admssions,
covered days and LOS. In 1988, roughly 350, 00 Medicar patients were admtted to SNFs. In
1989, that number rose to 585, 00, a 67 percent increase. Not only were more patients being
admtted to SNFs in 1989, they were staying longer. Pror to the enactment of MCCA , the
average LOS was about 26 days per admssion. In the fit 6 months following the enactment of
MCCA, the average LOS had risen to 36 days per adssion.

The increases in SNF admssions and longer stays accounted for nearly 87 percent of the $2
billon increase in SNF spending Medicare experienced durng MCCA. The remaining 23
percent of the increase in SNF spendig is accounted for by the changes in patient coinsurance
that accompanied MCCA.

Finding 4.	 Barrng any unforseen changes, it appears unlikely that admissions and pay­
            ments will return to anywhere near the levels the Medicare program experienced
              before MCCA.

The enactment of MCCA provided the catayst which changed the SNF care environment by
briging more skiled care facilities and beds into the Medicar program. The demand for
skilled care remains high and it appear that keeping as many beds as possible certfied for
skilled care would be in a SNFs best financial interest.

Many SNFs made a considerable investment in the Medicar program durng MCCA. Nursing
homes which had previously avoided parcipation in the Medicar program were lured into
certfying some beds for skilled car. Other facilities expanded their cenified beds. Patient
turnover, in these beds, should keep Medicar payIIent levels for SNF car high.

The repeal of MCCA has reduced the amount Medicare pays for SNF car to some degree. The
reduction is primary due to reinstatement of a $74. 00 per day coinsurance for skiled care
exceeding 20 days. This coinsurce wil probably deter some patients from pursuing SNF
benefits beyond 20 days. This reduction in progr outlays, brought about by increased
coinsurance payments, is likely to be offset by increased use of the certfied beds brought into
the program during MCCA. Stays are likely to be shoner. Patients wil leave cenified beds
sooner only to be replaced by other patients.
A fragile mi of interdependent varables influences the future diection of Medicare SNF
payments. This fragile mix includes:

               increases or decreases in hospital based or specialized SNFs,

               Federal, State and local changes in laws and regulations,
               tightening or relaxing of SNF claim reviews by payers,


               changes in coverage and other program policies,


               increases or decreases in the numer of certified beds; and,


               increases or decreases in the amount paid for SNF care by Medicare, Medicaid

               or other payers.

Growth in Medicare SNF payments should remain predctable as long as these and other external
and internal forces in the SNF community remain constat.
                                           APPENDIX A

The following table shows the average monthly SNF payments made by 43 PIs. The table also
shows the percentage of change between periods for these 43 FIs. Only PIs with 48 months of
data were used in the analysis. The four period used to measur dierences in PIs are:

               pre-   guideline (January            1987 -        April   1988),        the period before HCFA changed
               SNF coverage,

               post-    guideline (May          1988 -       December          1988),    the period after the SNF coverage
               guideline changes,

               MCCA (January               1989 -    May 1990), the period during which MCCA was in
               effect and includes 150 days after the repeal of MCCA , and;

               post-    MCCA (June 1990                  December 1990), the period after the 150 days grace
               period mentioned above.



The percentage change was calculated by tang the average monthly SNF payment of a later
period and subtractig from it the average monthly SNF payment of an earlier period. This
difference was then divided by the earlier period' s average monthly SNF payment.

The box below shows the lowest and highest percentage change in each period.
                          PRE-            POST                           POST
FISCAL INTERMEDIARY       GUIDE           GUIDE           MCCA           MCCA


BLUE CROSS OF ALABAM      $211, 179       $150, 380          046,998     $855,
                                           28 8%          596.            18.


BLUE CROSS OF ARIZONA     $414 673        $590, 500       $2, 355, 279         747, 563
                                          42.4%           298.           16.


BLUE CROSS OF ARKASAS     $530, 867       $630, 375       $654 414       $616, 065
                                           18.


BLUE CROSS OF             $6, 777, 740    $7,240, 019     $14 284,       $15, 592,446
CALIFORN                                                  97.

BLUE CROSS OF FLORIDA     $869,497        $1,208,013        743, 227     $3,956, 291
                                          38.             127. 1 %       44.

BLUE CROSS OF GEORGIA     $148,           $236, 978       $648,003       $766, 912
                                          59.             173.4%         18.4%

HEALTH CAR SERVICES       $2,394 245      $3,046, 749     $6, 533, 240   $8680663
ilINOIS                                   27.             114.4%         32.

ASSOCIAJD INSURCE            326, 312    . $1, 767, 164   $5, 160, 192   $5, 990, 398
INIANA                                    33.             192.           16.


IASD HEALTH SERVICES      $1,466, 026        528, 349     $2,619, 650    $3,028, 748
                                          4.3%            71.4%          15.


BLUE CROSS OF KASAS       $658, 350       $574 895        $1,06, 076     $1, 311, 893
                                           12.            85.            23.3%

BLUE CROSS OF KENTCKY     $654 984        $768, 767          152 175           796,293
                                          17.4%           180.            16.


BLUE CROSS OF LOUISIANA      594 996         740, 192     $3,224 166     $4, 034,460
                                          9.1%            85.            25.

HAWAII MEDICAL            $203,           $218, 299       $551, 261      $613, 908
                                                          152.           11.4%


BLUE CROSS OF MAIN        $196,           $350,697        $676, 937      $494 760
                                          78.             93.             26.
BLUE CROSS OF             $630, 712             $727,430          321, 986      $1,455, 373
MASSACHUSETTS             15.
                                 81.7%            10.


BLUE CROSS OF MICHIGAN
   $684, 726             $777, 685
     $1,410,410       $1,275, 590
                                                13.            81.4%

BLUE CROSS OF             $747,651              $1,396, 780    $6,717, 137      $7,003,025
MISOTA                                          86.            380.


BLUE CROSS OF             $180,956              $227, 582      $406, 573        $556, 253
MISSISSIPPI                                     25.            78.              36.


BLUE CROSS OF MISSOURI       697, 873           $3,06, 547           196,201    $7, 741 371
                                                13.            134.


BLUE CROSS OF MONTANA     $246, 585             $239, 868      $821 241         $658, 555
                                                               242.4%            19.


BLUE CROSS OF NEBRASKA    $11, 347              $14 153        $94 062          $149, 015
                                                24.            564.             58.4%

BLUE CROSS OF             $122, 849             $264, 884      $301, 338        $375, 090
NEW HASHIE- VERMONT                             115.           13.              24.5%

BLUE CROSS OF             $164, 309             $271, 847            851, 545   $3, 767, 860
NEW MEXICO                                      65.4%          581.1 %          103.5%


EMPIR BLUE CROSS
         $4,649,               $5, 158, 328   $10,732 640      $13,284, 002
NEW YORK                                        10.            108. 1 %         23.


BLUE CROSS OF             $418, 062             $433,449          525,485       $1, 836, 555
NORTH CAROLINA                                                 251.9%           20.4%

BLUE CROSS OF             $161 865              $204, 052      $60, 504         $602, 553
NORTH DAKOTA                                    26.            194.


COMMTY MUAL               $2, 184,              $2,421 110     $7, 800,44 7     $8, 195, 512
INSURANCE OHIO                                  10.            222.

BLUE CROSS OF             $912, 560             $1,026, 987    $985, 070        $832 871
OKLAHOMA                                        12.5%          -4.               15.5%


BLUE CROSS OF OREGON
     $643,401              $983,401             740, 901   $2, 604, 584
                                                52.            178.




                                        A- 3

BLUE CROSS OF             $966, 754            186, 745   $2,611,751     $2, 834 427
PHlADELPHI , PA                          22.              120. 1 %


COOPERATIA                $86, 523       $74 995          $109, 305      $229, 141
PUERTO RICO                               13.             45.            109.


BLUE CROSS OF             $189, 220      $256,954         $1,279, 789          139, 088
RHODE ISLAN                              35.              398.            11.0%


BLUE CROSS OF             $382 787       $353, 002        $960, 588      $949, 288
SOUT CAROLINA
                                            172. 1 %        1.2%


BLUE CROSS OF TESSEE      $1, 110,672    $1,224 131       $3,619, 678    $3,016, 784
                                         10.              195.            16.


BLUE CROSS OF TEXAS       $2,304,        $2,524 985       $2,590,484     $3,485, 399
                                         9.5%                            34.5%


BLUE CROSS OF UTAH        $416, 283      $508, 591        $1,485, 970    $1, 105, 014
                                         22.              192.            25.


BLUE CROSS OF VIGINA      $517, 577      $641 153           646, 043     $1,620, 768
                                         23.              156.            1.5%


BLUE CROSS OF             $233, 530      $243,951         $759, 773      $887, 130
WEST VIRGINA                                              211.4%         16.


BLUE CROSS OF WISCONSIN   $870, 318         081, 803      $3,090, 320    $3, 368, 907
                                         24.3%            185.


BLUE CROSS OF WYOMIG      $34 507        $30, 135         $99,205        $146, 984
                                          12.             229.           48.


TRAVELERS                 $2,617,042     $3, 809, 356     $12,772,469    $13,205, 106
                                         45.              235.3%         3.4%


MUAL OF OMA               $7, 309, 716   $8,556, 090      $25, 816,096   $24 575, 832
                                         17.              201.7%         -4.


AETNA TOTAL A             $12 043,225    $14 320,023      $56, 863,843   $63,689,235
                                         18.              297. 1 %       12.
